<html>
<title> - Y2K AND NUCLEAR POWER: WILL THE REACTORS REACT RESPONSIBLY?</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




      Y2K AND NUCLEAR POWER: WILL THE REACTORS REACT RESPONSIBLY?

=======================================================================

                             JOINT HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT MANAGEMENT,
                      INFORMATION, AND TECHNOLOGY

                                 of the

                     COMMITTEE ON GOVERNMENT REFORM

                                and the

                       SUBCOMMITTEE ON TECHNOLOGY

                                 of the

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 22, 1999

                               __________

                     Committee on Government Reform

                           Serial No. 106-58

                          Committee on Science

                           Serial No. 106-55

                               __________

   Printed for the use of the Committee on Government Reform and the 
                          Committee on Science


     Available via the World Wide Web: http://www.house.gov/reform

                                 ______
                    U.S. GOVERNMENT PRINTING OFFICE
61-296 CC                   WASHINGTON : 1999




                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Government Management, Information, and Technology

                   STEPHEN HORN, California, Chairman
JUDY BIGGERT, Illinois               JIM TURNER, Texas
THOMAS M. DAVIS, Virginia            PAUL E. KANJORSKI, Pennsylvania
GREG WALDEN, Oregon                  MAJOR R. OWENS, New York
DOUG OSE, California                 PATSY T. MINK, Hawaii
PAUL RYAN, Wisconsin                 CAROLYN B. MALONEY, New York

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          J. Russell George, Staff Director and Chief Counsel
                   Matt Ryan, Senior Policy Director
    Bonnie Heald, Communications Director/Professional Staff Member
                          Chip Ahlswede, Clerk
                    Trey Henderson, Minority Counsel
                          COMMITTEE ON SCIENCE

       HON. F. JAMES SENSENBRENNER, Jr., (R-Wisconsin), Chairman
SHERWOOD L. BOEHLERT, New York       RALPH M. HALL, Texas, RMM**
LAMAR SMITH, Texas                   BART GORDON, Tennessee
CONSTANCE A. MORELLA, Maryland       JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            JAMES A. BARCIA, Michigan
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
JOE BARTON, Texas                    LYNN C. WOOLSEY, California
KEN CALVERT, California              LYNN N. RIVERS, Michigan
NICK SMITH, Michigan                 ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         MICHAEL F. DOYLE, Pennsylvania
VERNON J. EHLERS, Michigan*          SHEILA JACKSON-LEE, Texas
DAVE WELDON, Florida                 DEBBIE STABENOW, Michigan
GIL GUTKNECHT, Minnesota             BOB ETHERIDGE, North Carolina
THOMAS W. EWING, Illinois            NICK LAMPSON, Texas
CHRIS CANNON, Utah                   JOHN B. LARSON, Connecticut
KEVIN BRADY, Texas                   MARK UDALL, Colorado
MERRILL COOK, Utah                   DAVID WU, Oregon
GEORGE R. NETHERCUTT, Jr.,           ANTHONY D. WEINER, New York
    Washington                       MICHAEL E. CAPUANO, Massachusetts
FRANK D. LUCAS, Oklahoma             BRIAN BAIRD, Washington
MARK GREEN, Wisconsin                JOSEPH M. HOEFFEL, Pennsylvania
STEVEN T. KUYKENDALL, California     DENNIS MOORE, Kansas
GARY G. MILLER, California           VACANCY
JUDY BIGGERT, Illinois
MARSHALL ``MARK'' SANFORD, South 
    Carolina
JACK METCALF, Washington


                       Subcommittee on Technology

               CONSTANCE A. MORELLA, Maryland, Chairwoman
CURT WELDON, Pennsylvania            JAMES A. BARCIA, Michigan**
ROSCOE G. BARTLETT, Maryland         LYNN N. RIVERS, Michigan
GIL GUTKNECHT, Minnesota*            DEBBIE STABENOW, Michigan
THOMAS W. EWING, Illinois            MARK UDALL, Colorado
CHRIS CANNON, Utah                   DAVID WU, Oregon
KEVIN BRADY, Texas                   ANTHONY D. WEINER, New York
MERRILL COOK, Utah                   MICHAEL E. CAPUANO, Massachusetts
MARK GREEN, Wisconsin                BART GORDON, Tennessee
STEVEN T. KUYKENDALL, California     BRIAN BAIRD, Washington
GARY G. MILLER, California

                               Ex Officio

F. JAMES SENSENBRENNER, Jr.,         RALPH M. HALL, Texas+
    Wisconsin+




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 22, 1999.................................     1
Statement of:
    Beedle, Ralph, senior vice president and chief nuclear 
      officer, Nuclear Energy Institute..........................    51
    Miraglia, Frank, Deputy Executive Director for Reactor 
      Programs, U.S. Nuclear Regulatory Commission...............    30
    Rhodes, Keith, Director, Office of Computer and Information 
      Technology Assessment, Office of Management and Budget.....    28
    Willemssen, Joel, Director, Civil Agencies Information 
      Systems, U.S. General Accounting Office....................     8
Letters, statements, etc., submitted for the record by:
    Beedle, Ralph, senior vice president and chief nuclear 
      officer, Nuclear Energy Institute:
        Nuclear utility readiness information....................    78
        Prepared statement of....................................    53
    Horn, Hon. Stephen, a Representative in Congress from the 
      State of California:
        Letter dated December 18, 1998...........................   328
        Prepared statement of....................................     3
    Miraglia, Frank, Deputy Executive Director for Reactor 
      Programs, U.S. Nuclear Regulatory Commission, prepared 
      statement of...............................................    33
    Rhodes, Keith, Director, Office of Computer and Information 
      Technology Assessment, Office of Management and Budget, 
      prepared statement of......................................     9
    Turner, Hon. Jim, a Representative in Congress from the State 
      of Texas, prepared statement of............................     5
    Willemssen, Joel, Director, Civil Agencies Information 
      Systems, U.S. General Accounting Office, prepared statement 
      of.........................................................     9

 
      Y2K AND NUCLEAR POWER: WILL THE REACTORS REACT RESPONSIBLY?

                              ----------                              


                        FRIDAY, OCTOBER 22, 1999

        House of Representatives, Committee on Government 
            Reform, Subcommittee on Government Management, 
            Information, and Technology, joint with the 
            Committee on Science, Subcommittee on 
            Technology,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 10:13 a.m. in 
room 2318, Rayburn House Office Building, Hon. Stephen Horn 
(chairman of the Subcommittee on Government Management, 
Information, and Technology) presiding.
    Present from the Subcommittee on Government Management, 
Information, and Technology: Representatives Horn, Turner, 
Mink, Biggert, Kanjorski, Ryan, Davis, Ose, and Maloney.
    Present from the Subcommittee on Technology: 
Representatives Morella, Bartlett, Capuano, Baird, Gutknecht, 
Ehlers, and Udall.
    Staff present from the Subcommittee on Government 
Management, Information, and Technology: George Russell, staff 
director and chief counsel; Matthew Ryan, senior policy 
director; Bonnie Heald, communications director and 
professional staff member; Chip Ahlswede, clerk; P.J. Caceres 
and Deborah Oppenheim, interns; Trey Henderson and Michelle 
Ash, minority counsels; and Jean Gosa, minority staff 
assistant.
    Staff present from the Subcommittee on Technology: Jeff 
Grove, staff director; Ben Wu, professional staff member; Joe 
Sullivan, staff assistant; Michael Quear, professional staff 
member; and Mary Ralston, staff assistant.
    Mr. Horn. A quorum being present, we will begin the 
hearing.
    There are more than 430 nuclear power plants in the world, 
including 103 in the United States. Domestically, nuclear power 
plants provide an estimated 20 percent of the Nation's power 
supply. Regardless of the year 2000 computer challenge, safety 
has historically been a paramount concern at all U.S. nuclear 
facilities; however, the risk of even one failure at one plant 
is one too many.
    Today we will hear from a panel of witnesses who will 
describe the work that has been done to mitigate the risk of a 
nuclear accident related to the year 2000 computer problem.
    In December 1998, I and my colleagues, Congressman Dennis 
Kucinich, the former ranking member of the Subcommittee on 
Government Management, Information, and Technology, and 
Congressman Donald Manzullo wrote to the former chairman of the 
Nuclear Regulatory Commission expressing our concern over the 
Nuclear Regulatory Commission's plan to perform detailed audits 
on only 10 percent of the Nation's 103 nuclear facilities. 
Because of the potentially devastating consequences of a 
nuclear accident, we strongly recommended that the audits be 
performed on all nuclear facilities. Our recommendation was 
rejected.
    Today we want to be assured that the Nation's nuclear 
facilities are free of year 2000 risks. We want to provide an 
accurate portrayal of nuclear year 2000 readiness.
    I welcome our panel of expert witnesses and look forward to 
their testimony.
    [The prepared statement of Hon. Stephen Horn follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Horn. Mr. Turner has official business that he's 
working on right now, and when he comes back his statement 
during the question period will be automatically part of the 
record.
    [The prepared statement of Hon. Jim Turner follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Horn. Are there any statements that any of the Members 
would like to say at this time?
    [No response.]
    Mr. Horn. None. The vice chairman, Mrs. Biggert, the 
gentlewoman from Illinois.
    Mrs. Biggert. Thank you, Mr. Chairman.
    We have reached that critical point, with just under 70 
days left before the new year, when systems work drills and 
contingency plans should be complete, but, as we are going to 
hear today, that might not be exactly true in the case of all 
the Nation's nuclear power plants, which is why this hearing on 
year 2000 nuclear power is so timely.
    We have discussed Y2K's impact on commerce, government 
services, transportation, and life at home, but even if we 
address potential Y2K problems in these areas, none of these 
systems will work without electricity. By providing 20 percent 
of this country's electricity without contributing any air 
pollution, our nuclear power plants are vital to the stability 
of our electricity supply and the environment.
    The issue of Y2K and nuclear power is particularly 
important to my home State of Illinois. There are about a dozen 
nuclear reactors located throughout the State, 10 of which 
serve the northern 20 percent of Illinois, including Chicago.
    Commonwealth Edison, the owner of the 10 reactors serving 
northern Illinois, came before the Government Reform 
Committee's subcommittee at a field hearing in July in the 
district that I represent and reported that all nuclear 
stations were Y2K ready in July. So none of these plants are on 
the NRC's short list and never were, but we must remain 
concerned about the nine systems and seven reactors that aren't 
currently in compliance, and we must also be concerned about 
other sources of electricity.
    American nuclear power plants don't operate in a vacuum. 
Commonwealth Edison admits that a failure at one of their 
surrounding utilities could have some impact on their systems.
    So I want to thank the panelists for coming here today and 
updating us on the final preparations for Y2K, and I thank you, 
Mr. Chairman, for holding this hearing.
    Mr. Horn. Thank you very much.
    Does any other Member have an opening statement? The 
gentleman from Pennsylvania, the acting ranking member.
    Mr. Kanjorski. Mr. Chairman, I would like to ask unanimous 
consent that the statement of Mr. Turner be entered in the 
record.
    Mr. Horn. Without objection, it will be placed in the 
record between my own opening statement and the vice chairman's 
opening statement.
    Well, no other statements, let me now swear in the 
witnesses.
    [Witnesses respond in the affirmative.]
    Mr. Horn. Note that all four witnesses have affirmed.
    The way we work is when we introduce you, your full 
statement is automatically in the hearing record. We'd like you 
to summarize it, not read it word for word, because we can 
read--but if you summarize the high points, that will give us 
more time for a dialog among the panel, as well as between the 
Members and the panel. So we will start with Mr. Willemssen, 
who is our regular presenter, and the first one doing it. The 
U.S. General Accounting Office does a wonderful job for this 
subcommittee and all committees in the House.
    Mr. Willemssen, it is good to see you. We have seen you all 
over the country this year, and we are glad to see you here in 
Washington.
    Please give your presentation.

    STATEMENT OF JOEL WILLEMSSEN, DIRECTOR, CIVIL AGENCIES 
      INFORMATION SYSTEMS, U.S. GENERAL ACCOUNTING OFFICE

    Mr. Willemssen. Thank you, Mr. Chairman and members of the 
subcommittees. Thank you for inviting GAO to testify today. As 
requested, we will summarize our statement.
    Our Nation's nuclear power plants continue to make progress 
on their readiness for Y2K. Even with this progress, some risks 
remain. These risks include not knowing the current Y2K status 
of all 14 decommissioned plants with spent fuel, the lack of 
information on the consistency and extent of independent 
reviews of Y2K testing and emergency Y2K exercises, and the 
lack of requirements for day one planning, which is that series 
of events that should be planned for the end of December and 
the beginning of January.
    To address these risks, we have developed a set of 
suggested actions for NRC to consider.
    First, it is important that NRC know the status of all 14 
decommissioned plants with spent fuel and report their status.
    Second, NRC should determine what independent verification 
and validation efforts have been completed at nuclear power 
plants and determine whether additional reviews are needed.
    Third, NRC should identify whether emergency contingency 
exercises performed by nuclear power plants have incorporated 
Y2K scenarios.
    And, finally, we think it is especially important that NRC 
ensure that all facilities have developed day one plans. We 
have recently issued guidance in this area, which OMB has 
encouraged Federal agencies to use.
    Let me next turn to Mr. Rhodes, GAO's Director for Computer 
and Information Technology Assessment, who will provide you 
with some detailed information on the risks of nuclear plants 
using a Powerpoint presentation.
    Mr. Rhodes came to GAO from the Lawrence Livermore National 
Laboratory, one of two U.S. nuclear design labs. Since joining 
GAO, he has been heavily involved in nuclear energy issues such 
as stockpile stewardship, nuclear material tracking, and non-
proliferation. So I will turn it over to Mr. Rhodes and we will 
see if we can have our slide show.
    In addition, we have hard copies of the slides if the 
Members would like to follow along.
    Mr. Horn. We would like to have those, and the clerk will 
get them and pass it out to the Members.
    [The prepared statement of Mr. Willemssen and Mr. Rhodes 
follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



  STATEMENT OF KEITH RHODES, DIRECTOR, OFFICE OF COMPUTER AND 
  INFORMATION TECHNOLOGY ASSESSMENT, OFFICE OF MANAGEMENT AND 
                             BUDGET

    Mr. Rhodes. Mr. Horn, members of the subcommittee, thank 
you very much for inviting me here today. I would just briefly 
like to discuss a few slides that can help illustrate some of 
the issues we discussed in our testimony.
    The first slide shows the distribution of U.S. domestic 
nuclear power plants and their associated fabricationsites. The 
blue dots are the plants themselves, and the green squares are 
the fabrication sites.
    The difference is that a nuclear plant generates 
electricity, while the fabricating plant generates fuel used by 
the power plant.
    As of last Friday, there were only two plants, according to 
the Nuclear Energy Institute, that are not Y2K ready. One is 
Peach Bottom and the other is Farley. Peach Bottom is currently 
going through their final testing. Farley is in an outage now 
and they are doing their Y2K remediation and should be done by 
December.
    Mr. Horn. Where are those plants located?
    Mr. Rhodes. Peach Bottom is in Pennsylvania and Farley is 
in Alabama. If I can point it out on the large board, you see 
Peach Bottom at the top in Pennsylvania and Farley unit No. 2 
is down in Alabama.
    The next slide shows a typical nuclear power plant. We are 
talking about the plant here, as opposed to the reactor, 
itself. This is actually a pressurized water reactor, but there 
are also boiling water reactors and other kinds of reactors--
light water, heavy water.
    The areas that have to be watched under any circumstances, 
not just Y2K, are as follows.
    The grid itself, which brings in offsite power. In nuclear 
terms, a failure here is called a ``LOOP,'' a loss of offsite 
power, and is very important because it is the main power 
source for the plant to keep their systems running.
    Backup diesel generators are important, since if a LOOP 
occurs the generators need to kick in to provide backup power 
to run the plant. There are typically two diesel generators, 
although a few plants have hydroelectric sources for backup. 
This gives a higher degree of assurance that if one generator 
fails the second one can take over. It is a redundancy in their 
diesel systems.
    There has been much discussion about the reliability of 
these emergency diesel generators. Some claims are that the 
generators do not even meet 70 percent reliability, let alone 
their design requirement of 97.5 percent; however, according to 
a study by the Idaho National Engineering Laboratory, the 
generators meet their 97.5 percent requirement, and the lower 
reliability ratings are due to anomalous conditions occurring 
during routine maintenance--that is, while you have taken the 
generator off-line, then you have a power need, and that is why 
you are getting these lower reliability percentages. Sometimes 
people will come in and say they are only 70 percent 
reliability.
    Routine maintenance--we have had discussions with both 
power plants as well as NRC and NEI. Routine maintenance is not 
going to occur on the roll-over date, so our assumption is that 
the 97.5 percent reliability will be met by the diesel 
generators.
    Next in the cycle of importance are the pumps, themselves. 
The pumps are a key system, since they make certain that the 
water is flowing throughout the plant to keep the reactor 
itself cool, as well as the support systems for electricity 
generation. You see there are pumps throughout the system.
    The reactor itself, of course, is a key system, and its 
security systems are key, since that is the site of the fission 
reaction that generates the heat. Circulating water that 
continuously transfers heat from the core to the steam 
generation system cools the reactor core.
    Finally, the spent fuel pools need to have a continuous 
source of water, since the spent fuel does not cool down 
immediately and continues to fission at some low level for a 
long time after it has been removed from the reactor, itself.
    Again, to reiterate, the next slide shows those plants that 
are not yet Y2K ready, and that is as of Friday. NEI reported 
that D.C. Cook one and two are now ready, and that Farley and 
Peach Bottom--Peach Bottom, as I stated, is currently going 
through its testing, and Farley is in an outage and being 
renovated.
    The next slide shows a simple risk assessment box, four 
quadrants that show the relation between probability of failure 
and impact of failure. As you can see, the upper right-hand 
quadrant is rated as high/high--high probability of failure and 
high impact of failure.
    If you have devices that are sitting up in the upper right-
hand corner, the objective is to drive those devices down into 
the lower left-hand corner into a low probability of failure 
and low impact of failure.
    You reduce the probability of failure by doing remediation 
and replacement of the system, and you reduce the impact by 
doing contingency and continuity of operations planning, the 
objective being to move those systems into the low/low quadrant 
so that there is low impact and low probability of failure.
    Any risk assessment and risk management process, not just 
Y2K, is going to attempt to drive the risk from high to low, 
both in terms of probability and impact. The probability is 
reduced, as I said, through remediation and replacement, and 
the impact is reduced through contingency and continuity 
planning.
    Turning to international nuclear power, as you can see from 
this chart, if you have very good eyes, the United States leads 
the world in nuclear power plants, even though we do not get as 
high a percentage of our domestic power from nuclear as other 
countries such as France.
    The point here is that not just the United States has to be 
Y2K ready, the world has to be Y2K ready.
    Finally, this slide shows the distribution of nuclear power 
plants worldwide. As you can see, some plants are in rather 
remote locations, but most are not.
    As you are well aware, the former Soviet Union countries 
are the most worrisome to nuclear power experts, myself 
included.
    That concludes my, unfortunately, a little longer than 
brief introduction. I would appreciate any questions the 
committee has.
    Mr. Horn. Actually, we will wait until we complete the 
whole panel and then we will start asking questions.
    We now have a key witness from the Nuclear Commission, and 
that is Mr. Frank Miraglia, Deputy Executive Director for 
Reactor Programs, U.S. Nuclear Regulatory Commission.
    Mr. Miraglia.

  STATEMENT OF FRANK MIRAGLIA, DEPUTY EXECUTIVE DIRECTOR FOR 
      REACTOR PROGRAMS, U.S. NUCLEAR REGULATORY COMMISSION

    Mr. Miraglia. Thank you, Chairman Horn and members of the 
committee. I'm pleased to be here today on behalf of the 
Nuclear Regulatory Commission to report the year 2000 readiness 
of the Nation's nuclear power plants.
    Based upon our review of the responses from the nuclear 
power industry concerning year 2000 readiness, our independent 
inspection efforts at all 103 operating plants, and our ongoing 
regulatory oversight activities, we have concluded that the 
year 2000 problem will not adversely affect the continued safe 
operation of the Nation's nuclear power plants.
    Starting in December 1996, we engaged our industry 
stakeholders on the development of guidance to deal with the 
year 2000 problem. The draft guidance was issued for comment. 
The GAO reviewed the draft guidance and provided comments. 
Their comments were particularly helpful, many of which were 
considered in the NRC's endorsement of the final guidance.
    These industry guidelines were endorsed and subsequent NRC 
audits and inspections of our licensees' programs enabled us to 
independently assess the effectiveness of year 2000 readiness 
at each nuclear power plant.
    Regarding our highest priority, the uninterrupted 
performance of plant safety systems, all 103 nuclear power 
plants report that their Y2K readiness efforts are complete.
    As of October 20th--there will be some difference in 
numbers, based upon the dates--99 of these plants also 
determined that all of their computer systems that support 
plant operations are Y2K ready and that contingency plans were 
in place. The remaining four plants have additional work on 
non-safety-related systems.
    As you heard Mr. Rhodes say, NEI has reported that the 
Cooks units are completed. We haven't formally received a 
letter, but we understand that is the status of the Cook 
stations.
    These plants are on target to complete the remaining 
modifications in advance of the year 2000 transition period.
    Based on our information as of November 1st, only one plant 
will have year 2000 readiness work remaining. That station is 
Farley Two located in Alabama. That plant entered a shut-down 
on October 15th. It will have the modifications installed and 
off-line testing completed by mid-November. In order to declare 
total readiness, it will be waiting startup, which is projected 
for mid-December.
    The work remaining involves non-plant support systems and 
an outage, as required. These outages are scheduled, the 
readiness has been planned, and the work has been successfully 
completed on a sister unit.
    During late 1998 and early 1999, the NRC conducted audits 
of plant-specific Y2K programs and contingency plans at our 
licensees' facilities. Based upon these audits, we developed an 
inspection protocol in which all 103 reactors with Y2K programs 
would be reviewed.
    Based on these oversight activities, we have not identified 
any issues that would preclude licensees from achieving year 
2000 readiness. We will continue to monitor nuclear power plant 
readiness as year 2000 approaches.
    Concerns have been expressed about the inability or loss of 
electrical distribution grid during Y2K critical dates. 
According to the North American Electric Reliability Council, 
NERC's latest report, more than 99 percent of the Nation's 
electricity supply is classified as Y2K ready, or Y2K ready 
with limited exceptions.
    NERC states that the Y2K transition should have minimal 
impact on electrical systems operations in North America and 
that widespread, long-term loss of the grid as a result of Y2K-
induced events is not likely.
    Notwithstanding, the NRC has focused its attention on 
assuring reliable emergency power would be available to nuclear 
power plants. The scope of our licensees' Y2K programs, 
including contingency planning, covers the onsite power and 
other emergency power systems, such as the electrical diesel 
generators.
    NRC audits and inspections have verified licensees' 
considerations of those systems, and no associated Y2K issues 
related to onsite or emergency power systems have been 
identified.
    Regulatory requirements provide high confidence in diesel 
generator operability, availability, and reliability. 
Additionally, diesel generator reliability in emergency 
situations has been high, as demonstrated during weather-
related power upsets.
    We have also focused on spent fuel cooling systems to 
assure cooling of spent fuel stored at shut down facilities. 
The majority of spent fuel cooling systems are based on analog 
controls, and therefore not subject to Y2K problems.
    At the shut down facilities, only 14 have spent fuel 
remaining onsite. The heat generated by this spent fuel reduces 
with time, thus increasing the time available for operators to 
take actions to mitigate any off-normal circumstances.
    Existing procedures and operator training at these 
facilities allow the licensee to deal with normal and off-
normal situations such as loss of offsite power, and the plant 
staff would have time to control these functions.
    Notwithstanding these preparations, nuclear power plant 
licensees have developed contingency plans for each plant to 
cope with year 2000 problems.
    Based upon our inspections and audits, we have determined 
that all power plants have also developed day one strategies as 
part of the development of their year 2000 contingency plan.
    The NRC has also developed an agency contingency plan to 
respond to unforeseen events related to year 2000 problems that 
could potentially affect one or more of our licensees. The plan 
has been coordinated and communicated with other Federal 
agencies, as well as provided to the public for comment.
    We conducted a full-scale exercise on October 15th 
involving 11 nuclear power plants and three fuel facilities to 
further validate the NRC's contingency plan. The exercise was a 
success, and we gained valuable insights to further improve our 
readiness for the potential year 2000 transition.
    The NRC remains committed to keeping our stakeholders and 
the general public informed. We have posted our generic 
communications, audits, and reports on our external-internal 
website for access by members of the public.
    In conclusion, we have been active in addressing the year 
2000 problem, both internally and with our licensees. We will 
continue to work both nationally and internationally to promote 
awareness of Y2K problems. Our efforts have established a 
framework that appreciably ensures that the Y2K problem will 
not have an adverse impact on the ability of the nuclear power 
plants to safely operate or safely shut down during the year 
2000 transition.
    Thank you. That completes my statement.
    Mr. Horn. Thank you very much. That is a very helpful 
statement.
    [The prepared statement of Mr. Miraglia follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Horn. Our last panelist is Ralph Beedle, the senior 
vice president and chief nuclear officer for the Nuclear Energy 
Institute.
    Tell us a little bit about the Nuclear Energy Institute. I 
assume it is the trade association.

  STATEMENT OF RALPH BEEDLE, SENIOR VICE PRESIDENT AND CHIEF 
           NUCLEAR OFFICER, NUCLEAR ENERGY INSTITUTE

    Mr. Beedle. Chairman Horn. Thank you for the opportunity to 
testify today.
    The Nuclear Energy Institute is a member organization 
consisting of over 275 companies. Every nuclear operating 
utility is a member of the Institute. We establish policy and 
set practices for the nuclear industry as a whole.
    I applaud the efforts of the joint committees to monitor 
the status of year 2000 readiness across the spectrum of 
American industry. In the past 2 years, the Nuclear Energy 
Institute has developed and implemented a comprehensive year 
2000 readiness program. As a result of the tremendous effort of 
the thousands of professionals in the industry at our 103 
reactors, I am proud to report that the U.S. nuclear power 
plants have demonstrated that all safety systems are year 2000 
ready.
    Since I last spoke to you in May 1998, over 200,000 systems 
and equipment have been reviewed for year 2000 readiness, and 
as of this morning, the 101, as previously mentioned, are Y2K 
ready. The two remaining facilities are in the process of 
making modifications during maintenance periods that are 
currently in progress.
    The industry's nuclear power plants are well prepared for 
year 2000 and beyond.
    The comprehensive year 2000 program developed by NEI in 
1997 looks at all equipment that is important to plant 
operations, not just a few critical systems. The program is 
embodied in two documents, ``Nuclear Utility Year 2000 
Readiness'' and ``Year 2000 Readiness Contingency Planning.'' 
We supplemented these with training sessions for our project 
managers, conducted workshops to exchange year 2000 related 
information, and established an on-line bulletin board to speed 
the sharing of the most effective Y2K solutions.
    Throughout the process, NEI has carefully monitored and 
reported the status of nuclear industry preparation to the 
Nuclear Regulatory Commission, as well as the North American 
Electric Reliability Council.
    Safety is the nuclear energy industry's top priority, and 
with this in mind the first systems to undergo evaluation were 
those related to plant safety.
    The industry has worked closely with the Nuclear Regulatory 
Commission in an open process that facilitates meaningful 
oversight of the industry's program. After careful assessment 
and evaluation, industry experts are confident that the nuclear 
utilities will continue to produce safe and reliable 
electricity without being affected by year 2000 computer 
problems.
    NEI and our member utilities have worked closely with the 
North American Electric Reliability Council. As large-scale 
electric generating units, nuclear power plants are an 
important element in the overall stability of our Nation's 
electric transmission grid. Data reporting, testing, and 
exercise participation are all part of the FERC program to 
ensure that generation, transmission, and distribution of 
electricity will continue to be reliable.
    Recognizing the apprehension that many people have 
concerning this issue, the nuclear industry has prepared a Y2K 
contingency plan. Additional personnel, backup communication 
systems, and response strategies have been developed for each 
reactor facility. This advanced preparation will reduce the 
likelihood that even a minor problem will cause a disruption in 
power generation.
    Be assured, however, that any problem that could compromise 
safety would result in placing the plant in a safe shutdown 
condition.
    Before I conclude, let me address the subcommittee's 
request for information regarding the nuclear industry and the 
international year 2000 readiness.
    The U.S. Department of State serves as the lead entity in 
providing assistance to other nations on Y2K issues in 
conjunction with the International Atomic Energy Agency. The 
readiness program developed by NEI that I mentioned earlier is 
used as a basis for the IAEA international efforts. I'm certain 
that the State Department and the IAEA would be glad to provide 
you with additional details on their activities.
    In conclusion, the nuclear utilities have reviewed, tested, 
and resolved equipment problems and are ready for year 2000. 
Consumers can approach the transition of year 2000 with 
confidence that the Nation's 103 nuclear plants will provide 20 
percent of the electricity in a reliable and safe manner.
    Thank you, sir.
    Mr. Horn. Thank you very much. That is a helpful document 
you have submitted and I appreciate your summary.
    [The prepared statement of Mr. Beedle follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Horn. We have a number of members here from both the 
Science Technology Subcommittee, as well as Government Reform's 
Government Management, Information, and Technology 
Subcommittee. We will now go into questioning. Everybody on the 
panel, including myself, will be limited to 5 minutes until 
everybody else gets through. We have about 10 Members present, 
so it will take an hour for the questioning.
    But let me start out, based on the letter we wrote in 
December 1998 to Chairman Jackson when we asked her about the 
audit on the year 2000 readiness of all domestic nuclear power 
plants and facilities.
    We were told that, ``Well, we really don't have to worry 
that much. American reactors are different than French 
reactors,'' and so forth. And in February 1999, the NRC did 
respond finally to our letter and said 42 or 41 percent of the 
103 nuclear power plant units were included in the NRC sample 
audits of 12 utilities.
    What I'd like to know is: how did you develop that sample? 
Was that based on different reactors within the universe, or 
what?
    Mr. Miraglia. Yes, sir. I will be happy to respond to that.
    In terms of your letter--we did respond in February--there 
were 12 licensees that were examined in terms of the audit, and 
they covered 42 units. The units were picked on a number of 
criteria--the age of the plant, multiple units, single unit, 
different regions of the country, boiling water reactors, 
pressurized water reactors. And the 12 utilities did represent 
42 plants, which was a unique representative mix of the 103 
facilities.
    In addition, we did six audits of the contingency plans at 
six licensees other than the 12, and that covered another 18 
units. These were detailed audits where we used as the basis of 
the review the guidelines Mr. Beedle reviewed with you. Those 
guidelines were endorsed by the NRC as being appropriate 
guidelines to follow for Y2K remediation and assessment, as 
well as contingency planning.
    Based upon those reviews, sir, we did develop an inspection 
protocol and came up with an inspection protocol that was 
completed by our inspectors at each of the 103 facilities, 
based upon the insights of those audits.
    Through subsequent conversations and discussions, we did 
exactly what you originally had asked us in terms of where we 
stand today.
    Mr. Horn. Well, can you say that the 103 are Y2K compliant?
    Mr. Miraglia. In terms of the safety systems, they were 
reported as Y2K ready on July 1st, and we have confirmed that 
by independent inspections and followup inspections. As I have 
indicated in my testimony, right now, as officially reported by 
us, there are four that we consider to have some additional 
work in non-safety systems. Three of those are expected to be 
completed by the end of the month, and that one unit, Farley 2, 
would be Y2K ready by December.
    Mr. Horn. In terms of the use of computers in relation to 
the reactors, what do we know and what did the inspectors find 
out? Did they try a pilot where they advanced the date to 
January 1, 2000? And, if so, what happened?
    Mr. Miraglia. In terms of the inspection guidelines that 
were endorsed, there were a number of aspects of that plan in 
terms of how to assess the impact of potential computer 
problems and how to remediate and how to test. The testing 
could be roll-back, as you suggest, or roll-forward, as well as 
working with vendors to modify the programming within the 
systems.
    An important point that should be made is that there are 
not many digital control systems within the nuclear power 
plants' safety systems, so the scope of those kinds of 
activities is reduced.
    Mr. Horn. What do you know about the nuclear plants abroad? 
Is there a relationship between your commission in terms of 
loaning expertise on this? And what is your feeling as to what 
is happening there?
    Mr. Miraglia. We have worked through the International 
Atomic Energy Agency, as well as the Nuclear Energy Agency, 
which is part of OECD, the European economic community, and 
have provided what we have done in this country, in terms of 
the guidance. And, as Mr. Beedle has indicated, that guidance 
has been utilized by a number of foreign countries to review 
and remediate their facilities.
    As Mr. Rhodes has indicated, there have been concerns 
expressed relative to the Russian facilities. We don't have 
direct involvement and other than providing information and 
sharing what we have done here and what our regulatory 
processes are.
    Mr. Horn. My understanding on the Russian facilities is 
that one is very close to Alaska, in terms of at least the 
islands and reaching out to the Bering Strait. Is that a 
problem at all? Do we know anything from the Russians on that?
    Mr. Miraglia. I couldn't address that question.
    Mr. Horn. OK. Let me ask--because I have got about 40 
seconds left--GAO, did you look at the sample? Did you have any 
concern about the sample they took and the way they did it?
    Mr. Willemssen. The concerns that we would have had, Mr. 
Chairman, were really parallel to the ones that you pointed out 
in your letter. Subsequent to the letter, as NRC has pointed 
out, there were additional evaluations done. As we mention in 
our testimony, a 452-question check list was administered to 
all plants.
    In addition, we are aware that many of the plants did have 
independent verification and validation efforts performed; 
however, we are not clear on the exact nature of those IV&V 
efforts. One of the suggestions that we have for NRC is to be 
clear and precise on what was done and how consistent it was 
across plants so that, if there is additional IV&V needed at 
plants, there is still a couple months to do that.
    Mr. Horn. My time is up, so I'm going to yield 5 minutes to 
Mr. Kanjorski, acting for the minority.
    Mr. Kanjorski. Thank you very much, Mr. Chairman.
    Just in regard to the Peach Bottom plant in Pennsylvania, 
by the end of November you anticipate they will be in 
compliance, or the end of October?
    Mr. Miraglia. The end of October, sir.
    Mr. Kanjorski. Is there any reason why they are running 
late compared to the other 100?
    Mr. Miraglia. In terms of some of the remediation that has 
to be done, it requires an outage. Nuclear power plant outages 
are traditionally spring and fall. They completed the outage, 
the spring outage, on one unit and made the remediations. They 
are just in their fall outage, and the remediation is underway 
and expected to be completed by the end of the month, sir.
    Mr. Kanjorski. The entities that have the spent fuel, are 
there any that are at total capacity? And, if you can tell me, 
what type of manual backup is there if the computer system 
fails to keep the spent fuel secure.
    Mr. Miraglia. As I indicated in my oral and in my written 
testimony, most of the systems at these facilities are analog 
and do not have much digital and computer controls. The 14 
decommissioned facilities that one is talking about, the fuel 
has been in the pool for in excess of 2 years, and therefore 
the decay heat is significantly reduced. This would allow 
operators a significant amount of time, on the order of hours, 
to restore and to make up water and to replenish water, and 
that could be easily done manually.
    In addition, they do have emergency supplies that they can 
line up, as well.
    Mr. Kanjorski. It seems to me that, when you look at the 
number of plants in the world, the United States has about a 
third of the nuclear plants, and we could rest assured they are 
in pretty good shape. The other two-thirds, do you all have 
opinions as to what status they are? And is there a possibility 
that they could go to a critical point and, if so, cause a 
disaster such as we recently almost had in Japan, or something 
that you really have a reaction?
    Mr. Miraglia. That would be purely conjecture on my part, 
but my view would be that the concern, as Mr. Rhodes indicated, 
is directed at perhaps some of the facilities in the former 
Soviet Union, and that the concern there is perhaps not just 
directed at the plants as much as perhaps the reliability of 
the grids in those countries.
    Mr. Kanjorski. Backup systems for power?
    Mr. Miraglia. Maintaining power to the plant to assure safe 
operation, and I think there's little known. And I think, 
because of what is known in terms of real facts makes it 
difficult for one to make conjectures in that regard.
    Mr. Kanjorski. If there were failures in some of these 
other countries, particularly in the former Soviet Union, do we 
have a national policy or international policy of forming a 
response team to get in there before something would become 
critical, or are we just waiting under normal processes, if a 
disaster occurred, to then put together a response?
    Mr. Miraglia. I believe there is activity underway in terms 
of perhaps Department of Energy providing more assistance, but 
that is all I could say. I think the government is trying to 
provide assistance to these facilities.
    Mr. Kanjorski. But that is assistance now in helping them 
get to compliance. I'm talking about if something happens after 
January 1st and we say a week period of time or 2-week period 
of time. Do we have something that we can lend the best 
expertise and a response team very quickly to get into those 
areas?
    Mr. Miraglia. A very good example of that, sir, would be 
the events that did occur in Russia in 1986, and that the 
Federal Government does have a response plan and we would be 
prepared to interact, and that would involve a large number of 
agencies, of which NRC is just a part of what that response 
would be.
    Mr. Kanjorski. I notice on the list here plants, Korea. Is 
that South Korea, or North Korea, too?
    Mr. Miraglia. Most of the plants are in South Korea in 
terms of power plants.
    Mr. Kanjorski. But there are some power plants in North 
Korea?
    Mr. Miraglia. You are stretching my knowledge now. I 
believe there are some smaller reactors within North Korea.
    Mr. Kanjorski. The whole panel, if you can, more on the 
international problems, the other 66 percent, what do you think 
the degree of reliability is at this point? Is it that there 
are no problems out there that could be serious for other 
countries or for the world, as a whole, for something critical?
    Mr. Rhodes. In terms of the former Soviet Union, leveraging 
off of what the NRC has said, again, the concern--for example, 
let's take South Korea. Well, South Korea's reactors are CANDU 
reactors. They are Canadian light-water reactors, so the design 
is understood. When I was in Ottawa, Canada, in February at the 
International Nuclear Power Preparedness Conference, the 
Canadian Atomic Energy Control Board was there. They did meet 
with the South Koreans and they are helping them.
    We had the developers from Czechoslovakia, who built most 
of the Russian reactors, who were there. They have a few 
reactors themselves, and there was a good exchange.
    The concern that we had at that time, which stands today, 
is that the Russian nuclear power plant industry is still in 
what we would all describe as the ``awareness phase.''
    When you are talking about a graphite-moderated light water 
reactor of the Chernobyl type--it is called an RBMK--the 
concern again is not so much with the reactor itself as it is 
with the instability of the grid, the instability of diesel 
backup, and the fact that you are talking about a country that 
has a struggling economy.
    There are always anecdotal stories about people selling the 
diesel fuel as currency. I mean, you are moving into a barter 
environment. That is the concern. It is a concern that Lawrence 
Gershwin of the intelligence community voiced several times now 
over the last year, in that it is not with the reactor itself 
so much as it is with the stability of the grid.
    The United States is providing actual technical support, 
but we can't solve every problem for all the reactors in the 
former Soviet Union because we don't have the resources to do 
that unless we draw resources away from solving our own 
problem.
    That is the concern that I and other people who are 
tracking international nuclear power have. It is no so much our 
domestic it is not ourselves or Canada or Great Britain or even 
France as much as it is the former Soviet Union. And it is not 
so much the reactor as it is the stability of the grid.
    Mr. Horn. The time is up. We will now start on Ph.D. row to 
my left here. Mr. Ehlers is a physicist. We will go to Mr. 
Bartlett. With two degrees, you are Dr. Dr. Bartlett, I guess. 
Go ahead, Roscoe.
    Mr. Bartlett. Thank you very much.
    Are the nuclear reactors isolated from the grid, so if the 
grid fails there is not a problem with the functioning of the 
reactors?
    Mr. Miraglia. In terms of the design of our reactors, sir, 
we are concerned about the grid in two ways. First is the 
impact of the grid on the plant, itself. Second is the loss of 
the plant being a large power supply and what effect that may 
have on the grid.
    The plant can be isolated from the grid and operate on 
emergency diesel in isolation from the grid, but in that 
condition the plant is in a shut-down mode and maintaining 
itself in a safe shut-down condition.
    Mr. Bartlett. I have a lot more confidence in the integrity 
of the nuclear power plants in Y2K than I do in the continuity 
of the grid.
    Are plants prepared, if the grid goes down, to immediately 
isolate themselves so that there is no fall-back problem?
    Mr. Miraglia. In terms of even prior to the grid--the 
concern about Y2K, the loss of offsite power is a design basis 
event that the plants are evaluated and can cope with in terms 
of its design, and so the answer to that question would be yes, 
sir.
    Mr. Bartlett. Let me ask a policy question. I suspect that 
our nuclear reactors are going to behave flawlessly in Y2K. I 
do not have that same degree of confidence for the grid and the 
other power plants. Will this give us an opportunity to help 
educate the American people as to the safety of the nuclear 
power generation so that we might be able to expand that 
contribution to our electricity production in the future?
    Mr. Miraglia. That would be conjecture on my part, sir, 
but, since you have asked for a personal view, I would give it. 
I think, as indicated here, 20 percent of our electrical supply 
is nuclear. The expectation is that the grids will remain whole 
and that the nuclear power plants would safely go through that 
transition.
    As to whether that would be renewed interest in nuclear 
power I think that would remain to be seen.
    Mr. Bartlett. I would like us to be prepared to exploit 
what I think is going to be a meaningful opportunity here.
    We have 2 percent of the known reserves of oil. We use 25 
percent of the world's oil. That is a prescription for disaster 
and an obvious indication that we ought to be looking for 
alternative ways of producing our energy, and nuclear is 
certainly one of those.
    The big impediment to using more nuclear power has been one 
of education and the perception by the public that somehow this 
is not safe, although I think it has been the safest type of 
power generation that we have had.
    I hope that the Administration and others are looking for 
the opportunity of educating the American people so that they 
will be more comfortable with nuclear power. They are not now 
accepting of nuclear power. If we don't do something, the 20 
percent electricity we are now producing by nuclear power will 
shrink to zero. All the while, we are using up even more of the 
small amount of oil that we have remaining.
    As I said, although we have only 2 percent of the known 
reserves, we use 25 percent of the world's energy.
    Certainly, of all the countries in the world, we ought to 
be looking more aggressively at nuclear power, and we are 
actually turning away from it. As far as I know, no new plants 
are going to be licensed.
    I just hope that we will exploit the opportunity I'm quite 
sure we are going to have in Y2K for educating the American 
people as to the safety, the reliability of nuclear power 
plants so that we can hopefully move forward on that front.
    I have no further questions, Mr. Chairman.
    Mr. Horn. Thank you very much.
    We will now ask Mr. Baird from Washington, 5 minutes on 
questioning.
    Mr. Baird. Thank you, Mr. Chairman.
    I have just two fairly brief questions.
    First of all, we focused a lot on power generation. What 
about the waste storage programs around the country? What 
reviews have been put in place for that?
    Mr. Miraglia. Most of the spent fuel, sir, is at the 
operating reactors, and it is either stored in spent fuel 
pools, and those systems were examined in the context of 103 
operating reactors.
    As indicated, there are 14 facilities that are being 
decommissioned and no longer generating power, but they are 
maintaining the fuel in water pools. There are five facilities 
that have fuel either shipped offsite or in dry cask storage, 
which is a passive type system.
    Those systems and those facilities are being--maintaining 
cooling is the primary objective. The plant procedures are such 
that the operators are trained in taking appropriate response 
to those events. As I have indicated, most of the fuel in the 
pool is 2 years old or closer to 3 years old, and so the heat 
load is fairly low and there is significant time for the plants 
to deal with any contingency that might arise with respect to 
Y2K.
    As I indicated, most of the systems are analog and not Y2K 
prone, in many cases.
    Mr. Baird. In one of the testimonies it discussed a Y2K 
exercise, in which NRC conducted a table top exercise with 
Baltimore Gas and Electric. It sounds, from reading this, like 
it went pretty well and that people are well prepared.
    Was it your impression that people were well prepared 
because they knew they would be part of this exercise, or if we 
were to, say, randomly drop in tomorrow at some community that 
is near a nuclear reactor and say, ``What would happen? Would 
they be as well prepared?''
    Mr. Miraglia. I think, in context, the regulatory structure 
that exists and has existed prior to the Y2K issue always had 
emergency preparedness as a key centerpiece in defense and 
depth concept; therefore, there are emergency plans. We work 
with FEMA, our sister Federal agency. FEMA coordinates the 
offsite response to State and locals are prepared to respond to 
events at the nuclear facilities.
    We work with the utilities to assure that their emergency 
response plans are coordinated with the State and local 
officials.
    So that infrastructure existed. The existing table top 
brought the local facilities and local counties in and around 
Calvert Cliffs together, along with the utility, as well as 
State, FEMA, and us, and walked through scenarios to say, ``If 
this happens, how are we going to augment communications? How 
are we going to communicate?'' That was the kind of exercise 
that was conducted in terms of the table top, which was July, 
and that went very well.
    There were lessons learned, in that communications need to 
be compatible so one needs to talk to one another and say, 
``What are your plans,`` and that activity was ongoing.
    In addition, we did a drill on October 15th where we 
exercised our contingency plan and dealt with 11 nuclear power 
plants and three fuel facilities. Some of those facilities were 
exercising their contingency plans with the State and locals at 
that time, as well.
    Mr. Baird. From listening to that, though, I'm hearing 
about 12 plants where some sort of exercise has been done. To 
what extent has this been recreated across the broad spectrum?
    The nightmare scenario, of course, and not to be alarmist, 
of course, is an accident at a plant and simultaneously the 
grid goes down, communication is disrupted, transportation is 
disrupted, other problems. I mean, I'm not an alarmist with 
that, but it is worth saying. To what extent have other 
communities around nuclear plants within this country taken a 
very serious look at, if that scenario were to play out with 
the disruption of communication, power, transportation, et 
cetera, how would they cope with it? To what extent have they 
done that?
    Mr. Miraglia. In terms of the guidelines, the guidelines 
addresses those types of issues. Many of the utilities 
participated in the September 9, 1999, drill that was conducted 
with NERC in terms of exercising their plans, as well. So there 
were those kinds of exercises, as well, across the country, not 
only at the nuclear power plants, but most generating stations.
    In terms of our own contingency plans, we are going to have 
a resident or inspector stationed at the facility during the 
rollover in the transition. They will be familiar with the 
contingency plans at the licensees' facilities. They will be 
equipped. We have provided to each site, each inspector that is 
going to be at the facility, with satellite communications, so 
there is guaranteed communications between the facilities and 
our operations offices here in headquarters, as well as our 
regions.
    Mr. Baird. One last question. My understanding is that the 
French have distributed iodine to their residents as just a 
precautionary note, not in relation to Y2K. They did this some 
time back. Is there any thought about doing that?
    Mr. Miraglia. In terms of the use of potassium iodine for 
occupational workers, that is a part of most emergency response 
plans. The issue is a more widespread distribution of KI, and 
that policy matter is under review.
    Mr. Baird. It seems like it might be a fairly prudent 
prophylactic just in case, you know. To have it around anyway 
might be useful, but certainly in the off chance there would be 
a Y2K problem.
    Thank you, Mr. Chairman.
    Mr. Horn. Thank you very much.
    We now yield 5 minutes to the vice chairman of the 
Subcommittee on Government Management, Information, and 
Technology, the gentlewoman from Illinois, Mrs. Biggert.
    Mrs. Biggert. Thank you, Mr. Chairman.
    Mr. Miraglia, in the international activities, you 
mentioned the Y2K early warning system, and I understand that 
that will allow the U.S. nuclear power operators to monitor the 
status of the foreign nuclear power plants similar to their 
own, and that would give us about 12 to 15 hours that this will 
be ahead so that our plants will know if something is 
happening. But is there a similar system that would allow the 
U.S. nuclear plants, kind of looking across the United States, 
where there will be some in the west coast that will be 
following on later? Is there a plan in each of the plants in 
the different time zones to be able to know immediately if 
there is a problem?
    Mr. Miraglia. Yes. The ``YEWS'' system, the Y2K early 
warning system, is an Internet-based system. We have worked 
through NEA in trying to get foreign governments to subscribe 
to that system. At this time, there are about 25 countries that 
will be providing information. That information will be 
provided on a read-only basis to all of the nuclear power 
plants. We have indicated how they could subscribe and have 
access.
    That information would also be shared with the Information 
Coordinating Committee of the President's Y2K Council to share 
that information throughout the community.
    It is approximately a 17-hour head start if you go all the 
way to Australia and New Zealand and come across.
    Mrs. Biggert. Then each one will have a contingency plan 
that will be based on--let's say, the communication, as Mr. 
Baird mentioned, would shut down. Is there a contingency plan 
that they would still be able to know?
    Mr. Miraglia. In terms of the ``YEWS'' system, that is a 
source of information to say what is happening elsewhere and 
can we glean some knowledge so we would be better prepared.
    The contingency plans for the individual facilities are in 
place, and it would perhaps better prepare them to manifest for 
some potential impact. It should be within the context of the 
existing plans already, ma'am.
    Mrs. Biggert. And you said that all of the 103 domestic 
plants are Y2K compliant. How was the verification of that 
compliance done?
    Mr. Miraglia. We said Y2K ready. There is a slight 
difference between compliance and ready.
    In terms of the 103, we looked at the guidance documents 
that we endorsed, and in the context of those guidance 
documents and the audits that we did, we did focus inspections 
on the elements of that guidance.
    GAO has indicated that it was a 450 question checklist, but 
in order to complete those lists you went and looked at 
individual, specific attributes of the guidance.
    For example, five to six software systems and modifications 
were examined. Were they independently verified? Was there a 
peer review or was their quality assurance done on those 
aspects? And so those questions led to specific focused 
activities by the inspectors to look at the various elements 
and were they complying with the guidance that we developed and 
endorsed. That would give us the confidence to say that 
appropriate assessments had been made, appropriate remediation 
had been done, appropriate testing and contingency planning had 
been completed.
    Mrs. Biggert. Then was there a certification that they were 
compliant?
    Mr. Miraglia. In terms of our inspection activities, we 
would indicate in our inspection reports that were docketed for 
each of the facilities that we have completed those inspections 
and have concluded that they implemented the guidance and the 
guidance documents that would give us confidence in saying 
there is reasonable assurance of Y2K readiness of those 
facilities.
    Mrs. Biggert. So are there remaining risks to our domestic 
nuclear facilities?
    Mr. Miraglia. In terms of absolute guarantees, they are 
very difficult. There are many computer systems, many embedded 
chips. The systems that we used and the guidance that we 
provided we believe provided a framework to appropriately 
assess, remediate, test, and have contingency planning, and we 
believe that we have a basis for reasonable assurance.
    Mrs. Biggert. Thank you.
    Thank you, Mr. Chairman.
    Mr. Horn. Thank you very much.
    We now move to--well, I see there is a pass down there, so 
we will begin the round again.
    Mr. Beedle, when I was at the beginning of the first 
question, I think you had something you wanted to add to it. 
This is your chance.
    Mr. Beedle. You had asked a question, Mr. Chairman, 
concerning audits of the plants, and I wanted to point out that 
each one of these utilities has had at least three audits of 
one variety or another, consisting of self audits by their own 
QA organizations, which are rather extensive, audits of one 
utility against another one, and then third party audits, where 
we bring in contractors. That gives us a great deal of 
confidence that the effort on the part of the utilities has 
been detailed and thorough in their examination of the Y2K 
issues.
    Mr. Horn. When the Federal Government and the executive 
branch looked at the September 9, 1999, bit, there didn't seem 
to be much of a problem. Was there any problem in any of the 
nuclear reactors on that?
    Mr. Miraglia. Nothing was reported that was related to any 
Y2K event at any nuclear facilities, sir.
    Mr. Horn. There are about 300 foreign nuclear power 
facilities, and often the so-called ``facilities'' and their 
safety standards don't meet the U.S. standard. Getting back to 
where are we in some of the international bit, what is your 
feeling on that? Have you been called upon for technical 
expertise by the International Atomic Energy Commission?
    Mr. Miraglia. Yes. We have provided, in terms of 
participating in workshops, we have participated in workshops 
on the guidance that was developed here. That was shared.
    As NEI has indicated in their testimony here today, sir, 
that guidance has been used by a number of foreign countries to 
examine the Y2K issues.
    We have participated in discussing Y2K contingency 
planning. I'm scheduled to participate in an IAEA workshop next 
week in Vienna to discuss what we have done relative to the 
contingency planning here in the United States, so there has 
been that type of activity.
    In addition, we have worked through the Nuclear Energy 
Agency in developing the Y2K early warning system, and that has 
been another vehicle for us to indicate interest in activities 
that we have been engaged in.
    Mr. Horn. Mr. Rhodes, we have read articles, we have heard 
people say that nuclear weapons have no Y2K problem; that is, 
that the weapons, themselves, have no dates or clocks, and 
therefore there really wouldn't, in relation to time. Is that 
really true?
    Mr. Rhodes. Yes, it is. We performed an audit of the 
nuclear weapons stockpile. I led the team. GAO went out from 
one of our sister divisions that handles the stockpile 
stewardship issues, and we did a complete design review of the 
nuclear weapons, themselves, what's called the ``physics 
package,'' the actual weapon, and in the process walked through 
every electronic component, every design. I even did code walk-
throughs.
    In terms of time and a nuclear weapon, you are talking 
about a stop watch. Even those weapons that have chips in them, 
the chips don't have time. They get time from an external 
oscillating crystal, and that is just giving them a time 
interval. It is just a vibration, and they get an electrical 
impulse out of that vibration.
    So all they are doing is counting up time. And, while they 
are counting up time, certain events are taking place.
    So, I give you my professional opinion, and we have issued 
a letter stating that we have found that the U.S. domestic--
well, the entire nuclear stockpile for the United States is not 
a Y2K issue.
    They operate on what is called ``fiducial time.''
    Mr. Horn. Well, without objection, we will put the letter 
and any summary you have of the review in the record at this 
point.
    Mr. Rhodes. I will make certain it gets to you.
    Mr. Horn. I assume it isn't classified?
    Mr. Rhodes. No. There were many classified discussions, but 
it is an unclassified, public document.
    Mr. Horn. Last month, Congress set up the National Nuclear 
Security Administration, which is being formed to run the 
Nation's nuclear weapons laboratories. In your opinion, GAO's, 
how should this organization work with the Department of Energy 
to manage our nuclear weapons, assets, and security measures? 
Has GAO done any work in that area?
    Mr. Rhodes. We haven't done any formal work on it, but we 
have worked on discussions about security at the Department of 
Energy, and one of the points, key points, I would want to make 
about the oversight that is being brought to the Department of 
Energy is--and being someone who has come out of the weapons 
complex, it is very hard for the complex itself to assess its 
own risk, and what it considers to be valuable may be different 
than what the Department of Energy considers valuable may be 
different than what nationally is of value.
    If the external structure that is being applied to the 
Department of Energy can assess the value of the assets 
regarding the nuclear weapons, that would be of great value. 
That would be of great importance to the agency. And that would 
be one of the key--I think one of the key tasks at hand is to 
make certain that everyone understands the export value of 
super computer equipment, the domestic development of certain 
materials, et cetera, and how they should be handled and 
safeguarded.
    Mr. Horn. Well, continuing the second round, I will yield 
to Mr. Kanjorski, the ranking member.
    Mr. Kanjorski. Thank you, Mr. Chairman.
    Mr. Horn. The gentleman from Pennsylvania.
    Mr. Kanjorski. Since all four of you gentlemen are experts, 
and since obviously the American people may be seeing this 
testimony, I would sort of like each one of you to render your 
expert opinion based on reasonable certainty of your various 
disciplines as to what your professional opinion is as to the 
safety of the nuclear industry--and stockpile system is 
included, just so that you get a shotgun starting off, Mr. 
Willemssen.
    Mr. Willemssen. Well, as mentioned earlier by the NRC, 
there is no way we can give an absolute guarantee, but I think, 
through the efforts of NRC and the licensees, they have 
significantly reduced the remaining risk that is there.
    We have some additional steps that we think the NRC can 
take to further reduce that risk to even a more microscopic 
level along the lines of what we have talked about today, for 
example, additional information on independent verification and 
validation. We'd also like to see some additional evidence of 
detailed day one planning at each of the nuclear plants--that 
is, the series of steps that they plan to take at the end of 
December and early January in the unlikely event that there are 
problems.
    Mr. Rhodes. Let me expand on one point that Mr. Willemssen 
touched on.
    If you take an existing nuclear reactor and you look at a 
pump and you are basing your risk assessment and the emergency 
procedures based on the mean time between failure and the mean 
time to repair of an individual pump, you are taking a very 
large sample of equipment and you are trying to figure this 
probabilistic curve, and you say this individual pump failing 
has a probability of some value, some very small point. That is 
a probability based on standard manufacturing requirements.
    The point that I would make in amplifying Mr. Willemssen's 
point about day one planning is that you go to any nuclear 
power plant and there are literally rooms filled with operating 
procedures. The people are well trained. You cannot become a 
senior reactor operator without tremendous training, tremendous 
background, recertification.
    However, if that operator is operating according to normal 
emergency procedures where the probability of something going 
wrong may change because of an instability in communications or 
a perceived instability in the grid, then the point that Mr. 
Willemssen is making about that detailed day one planning, it 
is day one planning in light of the probability of a Y2K 
failure. It is not day one planning in light of the mean time 
between failure of a normal pump or the mean time between 
failure of a diesel generator or the mean time between failure 
of the grid.
    Now you have a very focused event, you have a very focused 
bit of data that you are supposed to capture, and that is the 
basis for our recommendation about formal day one planning.
    But I do concur that there is an extraordinarily low risk 
associated with nuclear power failure right now.
    Mr. Miraglia. In terms of the completeness of what we have 
done, if you look at the existing regulatory structure and what 
we have done to address the Y2K problem--and by the ``we,'' I 
mean the efforts of the industry and the agency, itself--I 
think we have reasonable assurance of continued safe operation 
of the facilities through the transition.
    With respect to the points and suggestions made by GAO, I 
think, in terms of the independent verification and validation 
efforts, I believe, if one looks at the guidelines, the audits 
that we have completed, and the inspections, I think we have, 
in looking at that entire framework, addressed some of those 
suggestions.
    With respect to the contingency plan, as Mr. Rhodes picked 
out, the uniqueness about the Y2K issue is that it is an event 
whose date is set. We know it is going to happen.
    In terms of the contingency planning guidance that we have 
provided and endorsed via the industry guidelines, it does 
address the topics and the issues that are outlined in GAO's 
letter of October 13th to the Federal agencies with respect to 
staffing, with respect to consumables, with respect to having 
additional contractor help, and security and those kinds of 
aspects are built into the guidelines for the contingency 
planning.
    I think, in terms of what we have in place and what has 
been developed, it addresses those issues such that it 
complements and supplements the normal processes and 
procedures.
    As Mr. Rhodes has said, the remediation and assessment 
addresses our attempt to try to keep the frequencies of failure 
to what is normally perceived by addressing the Y2K issue, and 
also designating specific contingency planning to assure that 
there is additional help and support during the transition.
    So, with respect to the suggestions, we believe that we 
have encompassed most of those.
    In your question, sir, you also asked for an opinion 
relative to the weapons stockpile, and I just want to say that 
I am not expert in that area and I would not offer an opinion.
    Mr. Beedle. With regard to the operation of these plants, 
we daily train, daily operate and maintain these plants. Yes, 
equipment fails on occasion. The operators are prepared to deal 
with that.
    We don't see that the Y2K is going the present any 
different situation for the operator than they would on a 
normal operating day, but we recognize the vulnerability of the 
Y2K, and, as a result of that, we have tested, as I indicated, 
some 200,000 pieces of equipment and systems in these plants. 
We have had to remediate about 10,000 throughout the industry.
    So we are talking about roughly 100 pieces of equipment or 
systems in each one of these plants that has been remediated, 
and they range from things of valve controllers, where we have 
embedded systems, to data collection and monitoring systems on 
these plants.
    There are relatively few systems in these plants that are 
actually controlled by computers. They are all controlled by 
individuals, human beings that are at the control switches. For 
the most part, these systems monitor and provide indication of 
plant performance, rather than actual control of the equipment.
    We have tested and verified that these systems will be 
ready for Y2K. We don't see that the vulnerability and risk to 
the plant is significantly different than the normal routine 
operational capabilities that we have with these plants today.
    I, like Mr. Miraglia, really don't have any opinion with 
regard to the weapons programs.
    Mr. Kanjorski. Thank you, Mr. Chairman.
    Mr. Horn. Thank you very much.
    I now yield to the chairman of the House Science Technology 
Subcommittee of House Science, the gentlewoman from Maryland, 
who is co-chairman of the select task force of her committee 
and my committee.
    Mrs. Morella. Thank you very much, Mr. Chairman.
    Mr. Horn. You take as much time as you would like.
    Mrs. Morella. Thank you.
    I apologize to this expert panel for not being here 
earlier, but I was involved with a great technology and 
education event in Montgomery County, MD, which is where NRC is 
located, Mr. Miraglia, as you know, in that beautiful White 
Flint Building.
    I do appreciate the testimony that has been given. I also 
appreciate the fact that I understand, Mr. Miraglia, that you 
commented on the fact that, of 103 operating nuclear plants, 
all but seven, I think, are Y2K compatible.
    Mr. Miraglia. That was updated during the testimony. There 
are four remaining.
    Mrs. Morella. Only four remaining?
    Mr. Miraglia. Yes, ma'am.
    Mrs. Morella. Maybe by the end of our hearing it will be 
down to one.
    But I do appreciate the fact that this has been done. I'm 
certainly very laudatory about those efforts.
    I guess the line of questioning that I would have would 
deal with how does your contingency plan at NRC differ from 
other contingency plans you might have. How does it differ from 
your usual emergency situation? I mean, do you have more safety 
people? How do you link up with coordinating with command 
control? Tell me what the difference is.
    Am I explaining that clearly enough?
    Mr. Miraglia. I believe I understand your question, Madam 
Chairman.
    Mrs. Morella. What new elements do you need and do you 
have?
    Mr. Miraglia. As I indicated earlier, there is an existing 
regulatory infrastructure for emergency response for off-normal 
circumstances.
    Mrs. Morella. Right.
    Mr. Miraglia. As a result of Y2K, we have developed 
guidelines for the industry to develop additional contingency 
planning. That would supplement those kinds of activities.
    In addition, our agency has augmented our own contingency 
plans and developed a Y2K contingency plan and provided that 
for comment, and we have coordinated with our other Federal 
agencies to indicate how we are going to operate during the 
transition period.
    We will have inspectors at each of the 103 reactors during 
the transition. We are developing procedures and processes for 
them to look for, things to look for.
    We have equipped each of those inspectors with satellite 
communications to maintain communications with our response 
center, which is located in White Flint. In addition, we have 
response centers at all four regional offices.
    We will have additional staff at our response center in 
Washington. We would have a staff of 40 folks during the 
transition. We will have a smaller team manning the response 
center, about six on New Year's Eve, to start looking at the 
reports from across the international community and to monitor 
the transition within the facilities.
    Each of our regional offices will have a team--regional 
administrators, senior managers, as well as a support team in 
each of our regional offices.
    We have also planned, in the unlikely event if we lose 
communications with the headquarters response center, that that 
could be turned over to our region four office, which is in 
Arlington, TX. It is in a different time zone, it is on a 
different grid.
    And we have exercised that contingency plan this past 
October and it was a very successful drill, notwithstanding we 
have learned some things to improve our ability during the 
transition.
    So we are going to have additional staff and folks at the 
facilities, as well as our response centers.
    Mrs. Morella. Is it important to let the community around 
these 103 operating nuclear plants know of the fact that you 
are prepared, and just to kind of assuage any concerns they may 
have? In other words, do you have any kind of a public 
relations outreach plan?
    Mr. Miraglia. In terms of the agency itself, through the 
Y2K President's Council we have participated, there have been 
the community outreach issues. Our sister agency, FEMA, has had 
regional meetings in and around certain of the nuclear power 
plants that the NRC has participated in. As discussed earlier 
here today, Madam Chairwoman, we did a table top exercise with 
the Baltimore Gas and Electric utility with their local 
representatives and implementers of the emergency plan, as well 
as the State.
    We have encouraged the industry, through NEI, to inform the 
local community in what its state of readiness is, not only at 
the nuclear power plant but to also assure themselves that the 
telecommunications and electrical supply and the reliability of 
that in the vicinity is known to them as well as to the local 
community.
    Mrs. Morella. And, finally--because my time is expiring--
what plans do you have for alternative energy if there are 
difficulties, breakdowns with the nuclear power? Isn't it 20 
percent of our energy emanates--electrical energy emanates from 
nuclear power?
    Mr. Miraglia. In terms of the issue of reliability and the 
independent nature of our regulatory, statutory framework, our 
goal is to maintain the plants in a safe condition. 
Notwithstanding that, the Y2K issue does present a unique 
challenge to us. It is also important to maintain the 
facilities such that it doesn't adversely impact the grid.
    The plants are designed to tolerate a loss of offsite 
power. There are emergency diesels onsite. Those are under 
normal maintenance and surveillance programs, they are tested. 
As part of the contingency planning, there will be no 
surveillance tests during the transition period. Fuel tanks 
would be topped off and things of that nature would occur.
    So, in terms of maintaining a power supply available at the 
facility to maintain itself in safe shutdown, it will be done.
    Without the grid, the plant cannot generate power to the 
grid, so the objective is to keep the plants in safe shutdown.
    Mrs. Morella. Mr. Chairman, would you indulge me just one 
final question for the group?
    Mr. Horn. Certainly. You may have all the time you wish.
    Mrs. Morella. Thank you.
    Let me ask our GAO people, Mr. Willemssen and Mr. Rhodes, 
do you feel pretty good that they are following your suggested 
actions? Would you have any final comments to make? I mean, 
should we feel comfortable that everything is proceeding as it 
should with the countdown of so few days?
    Mr. Rhodes. The point that I would make, as I mentioned 
earlier about the--you design emergency procedures in a nuclear 
power plant based on probability, and there are some very, very 
fine probabilistic analysts that work at all of the nuclear 
power plants.
    But the probability today of the grid going down or the 
probability today of communications failing is different than 
when we hit the roll-over.
    Our concern and our suggestion is based on, one, the 
independent validation and verification that, as Mr. Miraglia 
has pointed out, there has been either a peer review, a quality 
assurance analysis, or an independent validation and 
verification done at all the plants.
    The point we would make is that NRC should take steps to 
make certain that a peer review, a quality assurance, and an 
IV&V are all equivalent.
    Second point is that that gives you the basis for 
understanding what the probability of failure is going to be. 
If the probability of failure is actually going to be unique at 
that time, you need to extract from these huge, huge volumes of 
operating procedures and emergency procedures the exact set of 
steps that you think you are going to probably need to take for 
day one.
    Now, that would affect, as you pointed out, staffing, 
consumables, et cetera. That would be the single point that we 
would make is that, until we know that the peer review, the 
quality assurance, and the independent validation and 
verification are equivalent and complete, and that, as a result 
of those analyses, someone didn't decide that they needed to 
have independent testing of a device, or something like that, 
then saying that this room full of emergency procedures is 
going to cover all contingencies is probably true, but making 
certain that you are ready for the most probable failures is 
where our suggestion comes in.
    Mrs. Morella. Did you agree, Mr. Willemssen?
    Mr. Willemssen. Yes. I totally concur with Mr. Rhodes' 
comments.
    Mrs. Morella. And, Mr. Miraglia, you do too?
    Mr. Miraglia. In terms of what I indicated, Madam 
Chairwoman, previously, is that in the content and scope and 
the concepts being offered, we agree. And I think our view is 
the steps and the framework that we have in place has addressed 
the issues raised by GAO.
    Notwithstanding that, we appreciate the views that are 
expressed and we will look at those suggestions to determine if 
additional things need to be considered.
    I think, in terms of the IV&V and the day one planning, 
when one looks at where we are and what we have done, I think 
we have essentially complied with the suggestions.
    I think, in terms of what GAO may be indicating during 
their review, they were perhaps able to ascertain exactly what 
we had completed.
    Mrs. Morella. Would you like to add anything, Mr. Beedle?
    Mr. Beedle. Yes, I would, Chairwoman.
    In developing this contingency plan that we provided to the 
utilities for implementation at each of the facilities, we have 
consideration for increased staffing, increased allocation of 
consumables in the event that you had some transportation 
problems. We wanted to make sure that you had adequate supplies 
and stocks.
    We think that we have addressed each of the issues that the 
GAO has pointed out, and, in fact, we have had the GAO review 
this document and provided valuable input in the construction 
of this plan.
    So everything that Mr. Rhodes is talking about is certainly 
valid, and, as Mr. Miraglia indicates, the NRC and I would add 
that the utilities, the licensees, are prepared to deal with 
those.
    A failure at the plant is a failure that results in action 
by people, and we have people trained and prepared to deal with 
these issues.
    Mrs. Morella. Thank you.
    And thank you, Mr. Chairman. Thank you to the panelists.
    Mr. Horn. Without objection, that document will be put in 
the record at this point.
    [The information referred to follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Horn. Also in the record will be the letter of February 
25, 1999, to Chairman Jackson, and the response that was the 
response from there and our letter from December 17, 1998 
earlier when it was mentioned in the record. Without objection, 
it will be there.
    [The information referred to follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Horn. I now yield to the ex-ranking member, Mrs. 
Maloney, if she has any questions.
    Mrs. Maloney. No questions, Mr. Chairman.
    Mr. Horn. OK. Do we have any from the vice chairman of the 
Government Management, Information, and Technology 
Subcommittee?
    [No response.]
    Mr. Horn. How about Dr. Bartlett.
    Mr. Bartlett. Thank you very much.
    Since most embedded chips will not know what time zone they 
are in, if they were to fail, when should we expect them to 
fail?
    Mr. Miraglia. In terms of the guidance, sir, we recognized 
that some of them may be on Greenwich Mean Time, so, in terms 
of the contingency planning, it is to look for failures across 
that spectrum. And, in terms of the assessment and the 
remediation, that was recognized, as well. It depends on the 
embedded chip and the functions that it performs.
    Mr. Bartlett. Greenwich Mean Time midnight would be when 
here?
    Mr. Rhodes. 7 p.m. Eastern time.
    Mr. Bartlett. 7 p.m. So if embedded chips are going to 
cause problems, we could expect that to perhaps start happening 
about 7 p.m.?
    Mr. Miraglia. And, as I indicated, we are manning our 
response centers, sir, at 6 p.m.
    Mr. Bartlett. You are an hour ahead of the curve?
    Mr. Miraglia. Hopefully, sir.
    Mr. Bartlett. Hopefully. Let me ask, are there, to your 
knowledge, any countries with nuclear power plants who have not 
been cooperating so that we do not know the status of their 
readiness?
    Mr. Miraglia. In terms of what I understand the primary 
assessor of the international Y2K readiness is the 
International Atomic Energy Agency, and they have been 
conducting assessments at the various countries. I am not aware 
of any such issues, but that is the extent of my knowledge.
    Mr. Bartlett. As far as the panel knows, all countries with 
nuclear power generating facilities have been inspected and are 
cooperating?
    Mr. Rhodes. I cannot say that they have been inspected. I 
can say they are providing information. The information, 
however, is self-reported and some of the official positions 
that are given, as we were discussing earlier about the former 
Soviet Union, are not very encouraging.
    Mr. Miraglia. I would offer the same answer, sir. I know 
the IAEA has gone to a number of the countries to make 
assessments and suggestions and the like, and the President's 
Y2K Council has been very active through the U.N. and 
encouraged information sharing and providing information flow 
and that kind of thing, but as to whether each plant has been 
inspected or not, I can't answer that question, either.
    Mr. Bartlett. I thank you.
    Thank you, Mr. Chairman.
    Mr. Horn. On that question, a few weeks ago we had a 
hearing here that related to the International Civil Aviation 
Organization that is a similar organization to the nuclear one 
in Europe, and there were about 35 countries that hadn't 
released the information.
    Well, our hearing got them to release them, so that was 
Friday, and Monday morning we had them.
    But the question would be to the Nuclear Commission, the 
U.S. version, which you represent: do you have access to the 
documents they would have filed with the international agency? 
And I think some of you were dubious if they have filed. 
Granted, it is self-reported, but so are what the executive 
branch here that we look at every quarter. That is all self-
reported, and the only time we will know if those data were 
proper and reliable will be on January 1, 2000, wherever the 
time zone is.
    Mr. Miraglia. In terms of our agency and access, as I said, 
we have been cooperating and we do get reports via the IAEA.
    We are an independent regulatory agency, and perhaps the 
Department of Energy would have even more direct access, but we 
do get reports on the assessments being done by IAEA and have a 
general knowledge and awareness of the kinds of discussions and 
findings that they have.
    Mr. Horn. One of our worries is, with the power needs, we 
look at Japan. We are worried about that. We look at Italy. We 
are worried about that. We know there are some central European 
and eastern European countries that haven't really taken the 
energy and the focus that you have had in this country. That is 
what worries us.
    Is that a correct worry?
    Mr. Miraglia. I think your representation reflects the 
degree of knowledge that we have, as well, sir, as the concerns 
overseas.
    Mr. Horn. Well, let me ask you gentlemen if there are any 
questions you would make or any points you would make that we 
didn't get out of you in the question period.
    Mr. Beedle.
    Mr. Beedle. I'd like to make a comment concerning Mr. 
Bartlett's question, ``Does this offer an opportunity to 
underscore the value of nuclear in this Nation's energy mix?''
    This Y2K situation is rather interesting. About 2 years ago 
the focus was on, ``Let's shut all these plants down because we 
are not sure they are going to be safe.'' Now the emphasis is, 
``Keep them running, because we need the energy.''
    So I would say to Mr. Bartlett we do have an opportunity to 
underscore the value that these nuclear plants provide to this 
Nation of ours. They do present 20 percent of the electric 
generation, it is clean, it is reliable, and I think we are 
well prepared to deal with Y2K.
    Mr. Horn. OK. It looks like there are no more questions.
    Mr. Miraglia. Might I comment on the last comment, sir, in 
terms of the posture of the NRC with respect to that? The NRC 
was created back in 1975 from the perspective of being an 
independent regulator, and, as such, we are not a promoter of 
the use of nuclear energy, so to take an active role in the 
promotion, sir, that is not a particular statutory mandate we 
have. That rests more with the executive branch and the 
Department of Energy.
    Notwithstanding that, our job is to assure that if nuclear 
power is used in this country, it is used safely, and that is 
our goal and our mission, and that we should also not be an 
impediment.
    The former chairman and present commissioners have 
indicated that we should have the right kind of regulation for 
each of the activities that we regulate.
    Our posture and goal is to make our regulatory process an 
efficient one, and, in terms of public outreach, we have an 
obligation in establishing public confidence in that we are 
doing our job of protecting and providing reasonable assurance 
for the public health and safety, and so in that sense we have 
that type of obligation, and we recognize it, sir.
    Mr. Horn. Well, on that point, the two reactors you 
mentioned at the beginning of your testimony I take it will 
conform with your safety standards on this subject.
    Mr. Miraglia. In terms of the two remaining ones?
    Mr. Horn. Right.
    Mr. Miraglia. Yes, sir. We will followup.
    Mr. Horn. In other words, you are telling us you don't have 
to worry about 103, they are all going to be OK.
    Mr. Miraglia. That is a reasonable assurance of that 
expectation, sir.
    Mr. Horn. OK. Good.
    Mrs. Morella. Thank you.
    Mr. Chairman, I just wanted to ask about, speaking of 
international, my understanding is that there is going to be a 
command center right in Washington, DC, that is going to be 
monitoring what happens in New Zealand. Are you all going to be 
connected to that? Maybe GAO would know the total structure of 
it.
    Mr. Willemssen. I can comment on the Information 
Coordination Center from a more broad perspective.
    FEMA will be a key part of the Information Coordination 
Center that, and through its regional offices will be gathering 
information on what is happening in States and localities, and 
that information will flow up to the ICC.
    In addition, each of the major Federal agencies will have 
their own command/coordination center and report into the ICC.
    I anticipate that NRC will have a similar mechanism. We 
have briefly looked at the NRC's day one plan and note that 
they have begun efforts to do that internally, and I have heard 
in the testimony today additional planned efforts from an 
oversight and an external perspective.
    I look forward to the detail in their plans on how exactly 
that will be carried out.
    Mr. Miraglia. If I may add to that, Madam Chairwoman, in 
terms of our contingency plan, it does include an element of 
participation in the coordinating center.
    In part of the contingency plan that we exercised on 
October 15th, we simulated our ICC cell. I, personally, will be 
at the ICC during the turn-over, with some additional staff, 
having communications to our central response center.
    As Mr. Willemssen has indicated, it is to be a central flow 
of information.
    In addition, the Y2K early warning system data is being 
provided to the ICC, as well, so we will have an involvement.
    And, as Mr. Willemssen has said, the existing Federal 
response plan, overall response plan, is FEMA, and all of that 
is coordinated with many, many sister Federal agencies.
    Mrs. Morella. Thank you.
    Thank you, Mr. Chairman.
    Mr. Horn. Well, thank all of you, because I think this has 
reassured a lot of us. We had been very worried when you hadn't 
been looking at all of the reactors, and now you have taken 
that view, and I'm very impressed with the testimony we have 
received today and I thank all four of you for giving us that 
information. That is most helpful.
    Let me thank the majority and minority staff that prepared 
this hearing. J. Russell George is back there in the corner, 
staff director and chief counsel; to my immediate left, your 
right, Matt Ryan, senior policy director on Government 
Management, Information, and Technology, prepared the hearing; 
Bonnie Heald, our communications director and professional 
staff member against the wall there; Chip Ahlswede, our clerk; 
and P.J. Caceres, a faithful intern; and Deborah Oppenheim, the 
other faithful intern. And from the Technology Subcommittee of 
the House Committee on Science, Jeff Grove, staff director; and 
Ben Wu, professional staff member; Joe Sullivan, staff 
assistant. And from the minority staff, Trey Henderson, 
minority counsel, and Jean Gosa, staff assistant. And from the 
Technology Subcommittee, Michael Quear, professional staff 
member; and Mary Ralston, staff assistant. And our court 
reporter is Ruth Griffin.
    So thank you all, and with that we are adjourned.
    [Whereupon, at 1:59 p.m., the subcommittees were 
adjourned.]

                                   - 
</pre></body></html>
